<html>
<title> - EXAMINING THE PRESIDENT'S FY 2017 BUDGET PROPOSAL FOR EUROPE AND EURASIA</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]


                    EXAMINING THE PRESIDENT'S FY 2017 BUDGET 
                      PROPOSAL FOR EUROPE AND EURASIA

=======================================================================

                                HEARING

                               BEFORE THE

         SUBCOMMITTEE ON EUROPE, EURASIA, AND EMERGING THREATS

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             SECOND SESSION

                               __________

                              JUNE 9, 2016

                               __________

                           Serial No. 114-167

                               __________

        Printed for the use of the Committee on Foreign Affairs
        
        
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]        


Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/

                                 ________
                                 
                                 
                       U.S. GOVERNMENT PUBLISHING OFFICE
20-380PDF                      WASHINGTON : 2016                       
                                 
                                 
_______________________________________________________________________________________  
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center,
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="5a3d2a351a392f292e323f362a7439353774">[email&#160;protected]</a>  
                               
                                 
                                 
                                 
                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         BRAD SHERMAN, California
DANA ROHRABACHER, California         GREGORY W. MEEKS, New York
STEVE CHABOT, Ohio                   ALBIO SIRES, New Jersey
JOE WILSON, South Carolina           GERALD E. CONNOLLY, Virginia
MICHAEL T. McCAUL, Texas             THEODORE E. DEUTCH, Florida
TED POE, Texas                       BRIAN HIGGINS, New York
MATT SALMON, Arizona                 KAREN BASS, California
DARRELL E. ISSA, California          WILLIAM KEATING, Massachusetts
TOM MARINO, Pennsylvania             DAVID CICILLINE, Rhode Island
JEFF DUNCAN, South Carolina          ALAN GRAYSON, Florida
MO BROOKS, Alabama                   AMI BERA, California
PAUL COOK, California                ALAN S. LOWENTHAL, California
RANDY K. WEBER SR., Texas            GRACE MENG, New York
SCOTT PERRY, Pennsylvania            LOIS FRANKEL, Florida
RON DeSANTIS, Florida                TULSI GABBARD, Hawaii
MARK MEADOWS, North Carolina         JOAQUIN CASTRO, Texas
TED S. YOHO, Florida                 ROBIN L. KELLY, Illinois
CURT CLAWSON, Florida                BRENDAN F. BOYLE, Pennsylvania
SCOTT DesJARLAIS, Tennessee
REID J. RIBBLE, Wisconsin
DAVID A. TROTT, Michigan
LEE M. ZELDIN, New York
DANIEL DONOVAN, New York

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director
                                
                                
                                ------                                

         Subcommittee on Europe, Eurasia, and Emerging Threats

                 DANA ROHRABACHER, California, Chairman
TED POE, Texas                       GREGORY W. MEEKS, New York
TOM MARINO, Pennsylvania             ALBIO SIRES, New Jersey
MO BROOKS, Alabama                   THEODORE E. DEUTCH, Florida
PAUL COOK, California                WILLIAM KEATING, Massachusetts
RANDY K. WEBER SR., Texas            LOIS FRANKEL, Florida
REID J. RIBBLE, Wisconsin            TULSI GABBARD, Hawaii
DAVID A. TROTT, Michigan
                            
                            
                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

Ms. Alina Romanowski, Coordinator of U.S. Assistance to Europe 
  and Eurasia, Bureau of European and Eurasian Affairs, U.S. 
  Department of State............................................     4
Mr. Daniel Rosenblum, Deputy Assistant Secretary for Central 
  Asia, Bureau of South and Central Asian Affairs, U.S. 
  Department of State............................................    19
The Honorable Thomas Melia, Assistant Administrator, Europe and 
  Eurasia Bureau, U.S. Agency for International Development......    30
Ms. Ann Marie Yastishock, Deputy Assistant Administrator, Bureau 
  for Asia, U.S. Agency for International Development............    42

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

Ms. Alina Romanowski: Prepared statement.........................     7
Mr. Daniel Rosenblum: Prepared statement.........................    21
The Honorable Thomas Melia: Prepared statement...................    33
Ms. Ann Marie Yastishock: Prepared statement.....................    44

                                APPENDIX

Hearing notice...................................................    62
Hearing minutes..................................................    63

 
                   EXAMINING THE PRESIDENT'S FY 2017
                     BUDGET PROPOSAL FOR EUROPE AND
                                EURASIA

                              ----------                              


                         THURSDAY, JUNE 9, 2016

                       House of Representatives,

         Subcommittee on Europe, Eurasia, and Emerging Threats,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The subcommittee met, pursuant to notice, at 2:04 p.m., in 
room 2172, Rayburn House Office Building, Hon. Dana Rohrabacher 
(chairman of the subcommittee) presiding.
    Mr. Rohrabacher. I call to order the Europe, Eurasia, and 
Emerging Threats Subcommittee for this afternoon's hearing on 
the administration's budget proposal.
    For the coming fiscal year the President has asked that 
Congress appropriate $50 billion for international affairs 
programs. Over $900 million has been requested for programs in 
the geographic jurisdiction of this subcommittee. This amount 
is much greater than what was sought just a few years ago, and 
I take this increased level of spending as an indication of our 
Government's renewed focus on the region, especially in Eastern 
Europe.
    Increasing our efforts in that part of the world to grow 
diplomatic links and improve prosperity is a good thing. Yet 
let me note that we are currently $19 trillion in debt, and we 
have added $1 trillion to that since this same hearing was held 
last year. And every dollar we use to help people of foreign 
countries places that much more of an additional burden on the 
backs of the American taxpayers and their children.
    All the government programs should meet a high standard, 
but foreign assistance in particular, if it is to be given at 
all, must meet rigorous standards of accountability. Congress 
has a duty to scrutinize the President's request to make sure 
that it is responsible and that it properly supports our 
Nation's priorities.
    During my time in Congress I have participated in many 
hearings on assistance programs. I have always been proud of 
the generosity of the American people. They are willing to lend 
a hand to less fortunate people whom they have never met. That 
is certainly an admirable part of the American character. But 
at some point generosity and responsibility have to go hand in 
hand. I have grown increasingly mindful to the limits of what 
America can afford and of what assistance dollars can actually 
provide.
    Today, we will discuss the effects of the ongoing war in 
Ukraine and the migration crisis and other factors that play in 
Europe. We will review our efforts and how we are coordinating 
with other international donors.
    Lastly, let me note there is a grave distinction between 
humanitarian assistance and development aid. Of course we 
should be ready to respond to natural disasters, earthquakes, 
floods, and the like. However, development funds can't work if 
recipient countries do not undertake sound economic reforms. 
The role of government assistance is not to replace private 
investment. Private investment has to go hand in hand or 
eventually we will fail to accomplish our goals.
    Without objection, all members will have 5 legislative days 
to submit additional written questions and extraneous material 
for the record. Hearing none, I so order.
    And with that, I turn to my ranking member, Mr. Gregory 
Meeks, for his opening statement.
    Mr. Meeks. I want to thank you, Chairman Rohrabacher. Thank 
you very much for, first of all, for holding this hearing to 
provide us an opportunity to examine the administration's 2017 
budget request and our Government's ability to execute our 
strategy in the region.
    When discussing our fundamental strategy for a Europe 
whole, free, and at peace, my attention is immediately drawn to 
the ongoing war in the Ukraine and in the country's struggle to 
reform its political economy. And while Russia continues to 
play a disruptive role in the region, I cannot stress enough 
the importance of the countries that are not in the spotlight 
in today's news cycle.
    Europe and Eurasia is, after all, a diverse region in terms 
of levels of political and economic development and of cultural 
and historical background. It has been a difficult year in our 
subcommittee's region as the rise of populism, migration, and 
acts of terror have put additional strain on an already limited 
budget. I am convinced that the work of our diplomats and aid 
workers in the field ensure that America's interests are being 
protected while bringing peace and prosperity to the region.
    The overall budget reflects a particularly urgent demand 
that, frankly speaking, may require more resources, in my 
estimation, when 2017 arrives. I am referring to the situation 
in Ukraine and the economic tightrope the government is 
currently walking. Yes, the reform of the economy must be done 
by the Ukrainians themselves following successive governments' 
failure to reform. But the new Ukrainian Government will never 
be able to meet the rightful demands of its citizens without 
the West's economic and political support. With a closing 
political window, I want to make sure that we help a committed 
government get reform right.
    Not considering the Ukraine portion of the budget, however, 
we are left with a relatively small budget given the myriad of 
concerns. A few weeks ago, this subcommittee hosted a lively 
hearing on progress and challenges in Turkey. Since the 
hearing, we have witnessed additional turmoil within our NATO 
allies' borders, not to mention the continuing humanitarian 
disaster in Syria.
    This is all related to the migration issue in Europe, which 
is of tremendous concern to me. Their path through the Balkans 
or Mediterranean is fraught with danger. Yet integration into 
European society can also be very difficult.
    All of this is to say that there is plenty of urgent work 
to be done in this region in coordination with our EU partners. 
Yet, I ask, is the EU still an attractive enough goal for the 
Western Balkan countries and Turkey?
    Meanwhile, in Central Asia we face similar problems, but 
with different variables. As the Russian economy reels, 
citizens feel the combined effects of low oil prices, 
corruption, a nonmodernized economy and Western sanctions. As a 
result, scores of migrant laborers, many of them men, are 
returning home to Central Asia. They are not only to deal with 
the local economy's reliance on remittances as a significant 
source of income, but the economies may not be able to absorb 
the influx of labor. In these countries, having frustrated 
portions of society with nothing they can do to support their 
families, people will look toward more drastic options to 
express their despair.
    And finally, in the Caucasus, where USAID has been active 
in various programs in the diverse region, I would like to hear 
how the 2017 budget aims to address the problems that seem 
increasingly difficult. I am referring to the backsliding of 
democracy and significant flare-ups in so-called frozen 
conflicts.
    As EU and NATO memberships become either less attractive or 
attainable goals in the medium term, our assistance there 
becomes that much more important. I realize that these 
conflicts are incredibly complicated and will not be solved in 
a day or two or even tomorrow. But I am a believer in diplomacy 
and would like to encourage dialogue through organizations like 
the OSCE.
    In conclusion, I look forward to discussing the proposed 
2017 budget with our four colleagues here from the State 
Department and USAID. It is my goal as ranking member of this 
subcommittee to challenge, nudge, and encourage you all to make 
sure our dollars are being used to their fullest potential in a 
diverse region that is so important to our economic and 
political interests.
    Thank you.
    Mr. Rohrabacher. Thank you very much, Mr. Meeks.
    And today we have four people whose opinion on these issues 
are really significant. You are people we trust in your 
expertise enough to be overseeing these programs. And we are 
anxious to hear your views. And let me just note, we are not 
anxious to hear them more than 5 minutes per person. And if you 
could sort of put the rest in the record and condense it to 5 
minutes, that would be very helpful.
    Unfortunately, there may be a vote between now and the 
questions and answers. Let's hope we can get the witnesses 
through by that vote.
    First we have--and, again, with a name like Rohrabacher, I 
always forgive everybody for mispronouncing it, so please 
forgive me if I am mispronouncing your name--Alina Romanowski. 
Is that it?
    Ms. Romanowski. It is actually Alina.
    Mr. Rohrabacher. Kalina.
    Ms. Romanowski. Alina.
    Mr. Rohrabacher. Alina. Got it.
    Ms. Romanowski. Romanowski was perfect.
    Mr. Rohrabacher. Okay. Got it. Okay.
    And Alina is a State Department coordinator for U.S. 
assistance to Europe and Eurasia. And in that role she 
coordinates our assistance programs across multiple State 
Department bureaus and government agencies. Previously served 
as deputy assistance administrator to USAID's Middle East 
Bureau and held senior positions in the Bureau of Educational 
and Cultural Affairs.
    Next we have Daniel Rosenblum. Got it. He is the deputy 
assistant secretary of state for Central Asia. From 2008 to 
2014 he served as the coordinator for U.S. assistance to Europe 
and Eurasia. Before that he held numerous positions of 
responsibility within the State Department before joining the 
executive branch as a legislative assistant to the executive 
branch right here on Capitol Hill. All right.
    Then Ms. Ann Marie--tell me.
    Ms. Yastishock. It is Yastishock.
    Mr. Rohrabacher. All right. Yastishock. Got it. The USAID 
assistance administrator for the Asia Bureau. She is a career 
senior foreign service officer who has worked on behalf of our 
Government around the world overseeing programs focused on 
building the rule of law, democracy, and governance. Her 
postings included Burma, Georgia, and Ukraine. Wow. That is a 
very tough--three tough assignments.
    Then Mr. Thomas Melia. Right. Got it. Serves as USAID 
assistant administrator for Europe and Eurasia. He was 
confirmed in that role just this past December. Before then he 
served as deputy assistant secretary of state in the Bureau of 
Democracy, Human Rights and Labor. Prior to joining the State 
Department he worked for Freedom House, the National Democratic 
Institute, as well as here on Capitol Hill for then-Senator 
Patrick Moynihan.
    Thank you all.
    And we will start at this end, and you may proceed, Ms. 
Romanowski.

    STATEMENT OF MS. ALINA ROMANOWSKI, COORDINATOR OF U.S. 
   ASSISTANCE TO EUROPE AND EURASIA, BUREAU OF EUROPEAN AND 
           EURASIAN AFFAIRS, U.S. DEPARTMENT OF STATE

    Ms. Romanowski. Chairman Rohrabacher, Ranking Member Meeks, 
and members of the subcommittee, thank you for inviting me here 
today and for your personal investment in supporting our 
efforts to expand a Europe whole, free, and at peace, and a 
safer, more open Central Asia.
    Since I last appeared before this subcommittee, our 
partners in Europe, Eurasia and Central Asia have made progress 
in key areas supported through our assistance. In Ukraine, 
Prime Minister Groysman raised gas prices to meet IMF 
requirements and passed critical reforms to strength judicial 
independence, shrink and modernize government bureaucracy, and 
reform the energy sector, which significantly limits the use of 
Gazprom as a political lever.
    In Moldova, we helped businesses move out from under 
Russia's trade barriers and toward free markets in the West.
    In Georgia, our support to populations around the 
Administrative Boundary Lines has strengthened local economies 
and created jobs.
    And in Central Asia, civil society in the Kyrgyz Republic 
successfully pushed officials there to reject a draft foreign 
agent law.
    While the success of our assistance is significant, the map 
of a free, democratic, Europe, Eurasia, and Central Asia 
remains incomplete. We continue to grapple with corruption, 
backsliding on democracy, suppression of media and civil 
society, ethnic tension, and protracted conflicts across the 
region. Given these challenges, your increases to the budget 
for this region have allowed us to meet urgent needs in 
countering immediate threats and helping countries move toward 
more prosperous futures.
    Our request for 2017 for the Europe/Eurasia region is $787 
million, and for Central Asia it is $164 million.
    Today I will focus on Europe and Eurasia and my colleague 
Dan Rosenblum will cover Central Asia.
    On Europe, we align our request with four strategic 
objectives. First, we are committed to supporting the sovereign 
choice of countries to determine their own political and 
economic destinies. That struggle is vividly illustrated in 
Ukraine where Russia has sought to stymie its democratic 
rebirth at every turn.
    Since the crisis began, the U.S. Government has committed 
over $1 billion in assistance for Ukraine. This includes over 
$600 million in security assistance, over $111 million for 
humanitarian efforts, and about $10 million for U.S. advisers. 
We have also provided the Ukrainian Government with two $1-
billion loan guarantees and signed a third agreement on June 3. 
To keep Ukraine's positive progress on track, we have requested 
$295 million for Ukraine, which will support the next phase of 
its anticorruption reforms.
    Like Ukraine, we are also assisting Georgia and Moldova to 
pursue clean, democratic governance and closer ties with the 
European Union. Funding for Georgia, Moldova, and Ukraine makes 
up 56 percent of our Fiscal Year 2017 request.
    Of course, Europe as a whole remains susceptible to malign 
Russian influence and its dependence on Russian energy leaves 
it particularly exposed. Energy diversification continues to be 
a key component of our strategy. In the Baltics and Central 
Europe, for example, critical projects have reduced energy 
vulnerability, including the opening of new LNG terminals in 
Lithuania and Poland.
    Our request for the Balkans includes about $154 million to 
help these countries complete their democratic journeys, 
integrate with Europe, and reduce their vulnerabilities to 
external pressures.
    With respect to our second objective, to combat corruption 
and build rule of law and accountable governance, our request 
will support independent judiciaries, increase government 
transparency, promote e-governance, and empower civil society.
    Toward our third objective, we are working to reverse the 
backsliding on democracy and attempts to close the space for 
political pluralism and public discourse throughout the region. 
Our request includes about $232 million for democracy programs.
    Regarding our fourth objective, U.S. assistance is playing 
an important role in addressing serious challenges to peace and 
stability across this region and within our own country. Our 
request includes $15 million for the European Security 
Assistance Fund to help increase the defense capacity of key 
allies and partners, including $3 million for countering 
violent extremism in the Balkans.
    We must not forget, however, the importance of building 
bridges between people. In Russia in particular, we will 
continue to support direct engagement between Russians and 
Americans.
    For 25 years our assistance to this region has been leading 
the way in tearing down walls, building lasting connections 
between peoples, and improving the lives of millions. Our 
request has been designed with today's tough budget climate in 
mind. We are committed to working diligently and effectively 
with the resources provided by the American people in the 
service of our values and our national interest throughout the 
region.
    I will now turn to my colleague Dan Rosenblum to detail our 
Central Asia request. I look forward to your questions, and 
thank you.
    [The prepared statement of Ms. Romanowski follows:]
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
       
                              ----------                              


 STATEMENT OF MR. DANIEL ROSENBLUM, DEPUTY ASSISTANT SECRETARY 
 FOR CENTRAL ASIA, BUREAU OF SOUTH AND CENTRAL ASIAN AFFAIRS, 
                    U.S. DEPARTMENT OF STATE

    Mr. Rosenblum. Mr. Chairman, Ranking Member Meeks, Mr. 
Weber, thank you very much for the invitation to testify today. 
And I ask that the full text of my statement be included in the 
record.
    The U.S. has two fundamental national security interests in 
Central Asia. The first goes back to the breakup of the Soviet 
Union when the U.S. set out to support the effort by the 
peoples of Central Asia to establish independent sovereign 
states free from undue external interference or intimidation.
    Our second primary interest is the stability of these 
sovereign and independent nations. We seek to prevent violence 
and the emergence of conditions that could result in states 
becoming havens for terrorist groups hostile to the United 
States.
    Those two key national security interests can best be 
achieved, we believe, by promoting security, prosperity, and 
good governance. That is the best recipe for long-term 
stability and for maintaining independence. And that is exactly 
the recipe supported by this budget request.
    Let me briefly review what we are doing in each of those 
three areas.
    Our security efforts focus on improving border security and 
strengthening the capacity of local security forces to counter 
terrorist threats. Our partners in Central Asia share our goal 
of disrupting the finance and recruitment efforts of Daesh and 
other international terrorist groups.
    Of course our trainings and other security-related 
engagements always emphasize that violent extremism must be 
distinguished from peaceful acts of expression, assembly, 
association and religious practice. We stress that stronger 
protections for basic rights and freedoms will make the 
countries of Central Asia safer and more secure and, by 
extension, make us safer and more secure.
    Our economic efforts are focused on promoting internal 
market-oriented reforms and economic diversification, as well 
as better connectivity among the Central Asian states and with 
their neighbors.
    Central Asia remains one of the least economically 
integrated regions in the world. What is more, the region's 
economy has been deeply affected over the past 2 years by 
Russia's negative economic growth and by low global commodity 
prices, leading to currency depreciation and a greatly 
decreased flow of remittances being sent home by migrant 
workers in Russia.
    These trends make the economic programming in this request 
more important than ever. We are promoting good governance in 
Central Asia through a variety of programs, including technical 
assistance to support internal reforms, and the strengthening 
of independent media and civil society.
    We also know it is essential to address the deeply rooted 
problem of corruption, which not only contributes to potential 
radicalization, but also harms the vitality of the private 
sector.
    The recent creation of the so-called C5+1 diplomatic 
platform following Secretary Kerry's historic trip to all five 
states in Central Asia last fall could allow for unprecedented 
regional cooperation on issues of common concern. Secretary 
Kerry and the five Central Asian foreign ministers agreed to 
form working groups to address economic connectivity, 
environmental challenges, and security concerns, especially the 
threat of violent extremism. We are grateful that Congress 
provided explicit funding in its Fiscal Year 2016 appropriation 
to support this platform with concrete regional projects.
    Mr. Chairman, I want to say with respect to Central Asia's 
relations with its neighbors that we do not see political and 
economic developments in Central Asia through the prism of a 
zero-sum game. This is a region where everyone can benefit from 
smarter security and trade that is inclusive, multidirectional, 
and rules based. We think that when the countries of Central 
Asia look around for partners, they can and should choose as 
many as they wish.
    Finally, we think it is very important to recall that these 
are relatively young countries that are celebrating this year 
only their first quarter century of independence. The U.S. was 
one of the first countries to recognize the new states of 
Central Asia, and since then our support for their sovereignty, 
independence, and territorial integrity has been and will 
continue to be ironclad.
    If these governments can make a greater commitment to 
accountable, transparent, and inclusive governance, the dynamic 
nations of Central Asia stand to make tremendous gains in the 
coming decades, gains that will not only contribute to security 
and prosperity in the region, but also to our United States 
security and prosperity.
    I look forward to answering any questions members of the 
subcommittee might have about specific countries or specific 
programs, and I thank you again for the opportunity to testify.
    [The prepared statement of Mr. Rosenblum follows:]
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                              ----------                              


      STATEMENT OF THE HONORABLE THOMAS MELIA, ASSISTANT 
   ADMINISTRATOR, EUROPE AND EURASIA BUREAU, U.S. AGENCY FOR 
                   INTERNATIONAL DEVELOPMENT

    Mr. Melia. Chairman Rohrabacher, Ranking Member Meeks, 
Representative Weber, on behalf of the U.S. Agency for 
International Development, I thank you for this opportunity to 
testify today in support of the President's Fiscal Year 2017 
request for Europe and Eurasia. I would ask that the full text 
of my testimony be inserted in the record and I will just touch 
on a few high points.
    The Europe and Eurasia region is in part a tremendous 
success story about U.S. assistance, providing case studies of 
targeted aid that helped countries transition quickly to free 
markets and democratic systems. Twelve countries have 
transitioned from receiving U.S. assistance and are now 
important U.S. partners and allies in the region and around the 
world. Yet the region's transformation remains incomplete. 
Progress is uneven in key areas, important achievements are at 
risk, and in a few cases we are seeing regression.
    In the Western Balkans, while there are key points of 
progress--Croatia and Slovenia have entered the EU, Montenegro 
and Serbia are in EU accession negotiations, and a 
Stabilization and Association Agreement with Kosovo entered 
into force on April 1--other countries struggle.
    In addition, a troublingly high number of Western Balkan 
citizens have joined radical violent Islamic extremist groups 
and traveled to conflict areas to join the fight. While the 
numbers have decreased in recent months, Bosnia and Kosovo 
remain among the top contributors, on a per capita basis, of 
foreign fighters traveling from Europe to Syria and Iraq. 
Stagnant economic conditions and high levels of youth 
unemployment, as well as Kosovo's continued isolation on the 
world stage, provide ripe conditions for radicalization. 
Through programs that help improve the economic prosperity of 
these countries and promote good governance, USAID seeks to 
address these drivers of violent extremism.
    The President's combined State and USAID request for the 
Balkans reflects a broad number of U.S. foreign policy 
objectives. Collaboration with host governments is real and 
significant in the Western Balkans, and U.S. aid and technical 
advice is highly valued.
    In Albania, our bilateral assistance strengthens the 
country's justice sector, improves local governance, and helps 
civil society serve as a watchdog.
    In Bosnia and Herzegovina our diverse program addresses the 
issue of radicalization. USAID initiated a 3-year program in 
2015 that pilots new approaches to address youth 
disenfranchisement and enhance opportunities for young people 
to participate in community initiatives. This effort will be 
implemented in six at-risk communities where there is evidence 
that young people are being recruited as foreign fighters for 
Syria and Iraq. This project provides psychosocial support to 
youth deemed vulnerable to radicalization through trained and 
experienced teams of psychologists.
    In Kosovo, in addition to major efforts in energy security 
and economic growth, USAID will continue to seek to move the 
country closer to membership in the EU and to normalize 
relations with Serbia. Our work in inter-ethnic dialogue 
focuses at the grassroots community level by helping people 
come together to recognize that their futures are intertwined.
    In Serbia, our assistance focuses on strengthening 
democratic institutions and the rule of law, reducing 
corruption, enhancing democratic and economic inclusion, 
supporting civil society, and increasing access to independent 
information. With $2 million in Complex Crises Funds, USAID in 
Serbia also launched a program to mitigate the impact of 
migrants on local communities, which at its peak in 2015 was 
seeing upwards of 5,000 migrants per day transiting through 
Serbian municipalities. Just last month, I visited one such 
refugee facility outside Belgrade run by the Vlade Divac 
Foundation, where our assistance helps improve crisis response 
coordination between the government and civil society service 
providers.
    The President's State/USAID request for Armenia, 
Azerbaijan, and Georgia will address urgent issues in a fraught 
region. In Armenia, our assistance will help alleviate 
disproportionate economic dependence on Russia, integrate 
Armenia into regional energy systems, and promote local 
governance initiatives. In Azerbaijan, we continue to look for 
opportunities to advance democratic and economic reforms and 
support civil society despite significant restrictions on our 
partners. In Georgia, we continue to work with the government 
and independent actors in civil society and the media to ensure 
that Georgia continues on a path to democracy and that the 
gains achieved to date are sustained.
    Finally, supporting Ukraine's comprehensive reform effort 
remains one of the agency's top priorities and the President's 
Fiscal Year 2017 State/USAID request will allow us to continue 
that work. We will be building that out in partnership with 
Prime Minister Groysman who is visiting Washington next week, 
meeting with USAID Administrator Gayle Smith and other senior 
administration officials.
    Ukraine is fighting a war on two fronts. Externally, 
Ukraine continues to combat Russia's aggressive actions. Our 
support also requires that Ukraine continue to battle against 
corruption, the internal enemy that has held Ukraine back for 
well over two decades. The U.S. has provided more than $1.1 
billion in foreign assistance to Ukraine since the crisis 
began, and now also a third sovereign loan guarantee that was 
signed on June 3. To support anticorruption efforts, USAID has 
also deployed U.S. advisers and experts within several 
Ukrainian ministries. We have also been active in providing 
humanitarian assistance and addressing some of the mounting 
public health crises in Ukraine.
    In conclusion, I would just say that we must not forget 
that the countries of Southeast Europe and the former Soviet 
Union are still young states working to build political 
institutions, regulatory and market frameworks, and 
institutional competencies required to access the capital and 
energy technology markets that will secure their futures. U.S. 
assistance, mostly technical or advisory, is critical to 
continued integration into the European and world systems. We 
must recognize that Europe is being tested by the continued 
flow of migrants and refugees, Russia's continued actions, and 
the growing potential of violent extremism gaining traction in 
the region. U.S. national security interests require sustained 
engagement in this region now more than ever.
    Thank you for your attention, and I will be glad to take 
your questions.
    [The prepared statement of Mr. Melia follows:]
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                              ----------                              


    STATEMENT OF MS. ANN MARIE YASTISHOCK, DEPUTY ASSISTANT 
 ADMINISTRATOR, BUREAU FOR ASIA, U.S. AGENCY FOR INTERNATIONAL 
                          DEVELOPMENT

    Ms. Yastishock. Chairman Rohrabacher, Ranking Member Meeks, 
and distinguished subcommittee members, thank you for the 
opportunity to testify today on USAID's role in advancing U.S. 
foreign policy goals in Central Asia. Before I begin, I ask 
that my full statement also be entered into the record.
    Mr. Rohrabacher. So ordered.
    Ms. Yastishock. Thank you.
    The Fiscal Year 2017 budget request of $164.1 million for 
foreign assistance in Central Asia reflects an increased 
commitment to American engagement in this strategically 
important region and is crucial to its success. Central Asia is 
continually challenged by the influence of neighbors, broader 
regional threats--such as the violent extremism that exerts an 
increasing pull over a growing number of labor migrants--and 
pressing development needs.
    Our request furthers USAID's mission to end extreme poverty 
and promote resilient democratic societies while also 
countering Russian pressure in Central Asia through increased 
funding to reduce dependence on Russia's economy and increased 
access to objective local news. Our request supports efforts to 
counter violent extremism by addressing its drivers with an 
emphasis on assistance to labor migrants.
    And the request supports USAID's efforts to address 
pressing development challenges in three main areas. First, 
increasing economic connectivity to create jobs and stronger 
country-to-country ties; second, meeting urgent human needs of 
global consequence; and, third, promoting stability through 
accountable and inclusive governance.
    First, on economic connectivity, offering little economic 
opportunity at home, the countries of Central Asia are some of 
the world's most dependent on remittances from abroad. To 
reduce this massive flow of migrant labor and contribute to a 
more stable, prosperous region, our assistance is encouraging 
domestic economic policy reforms that promote trade, attract 
investment, and create jobs. Under the New Silk Road and C5+1 
initiatives, we are promoting connectivity on energy and trade.
    Second, we are meeting urgent health, food security, and 
environmental needs. On health, the region has come a long way 
with our assistance. Yet Central Asia battles some of the 
highest rates of multidrug-resistant tuberculosis in the world. 
USAID is working on multiple fronts to help the region reverse 
this trend, including with rapid testing technology from 
California.
    On food security, we are working through the Feed the 
Future Initiative in Tajikistan to reduce poverty, 
undernutrition and stunting, and we are helping the region's 
wheat growers adapt to more frequent droughts, in addition to 
encouraging regional cooperation on water management.
    Third, we are promoting stability through accountable and 
inclusive governance. USAID support is wide-ranging and 
tailored to each unique country context from a robust array of 
democratic systems strengthening programs in the Kyrgyz 
Republic, civil society and rule of law support for targeted 
groups in Tajikistan, and court system strengthening that is 
opening the door to greater rule of law exposure in Uzbekistan.
    I will highlight key assistance areas in the five 
countries.
    In Kazakhstan, we partner to encourage further democratic 
reforms, improve health services and food security. USAID 
support contributed to the passage of ``access to information'' 
legislation last year that for the first time allows 
independent media to report on government activities.
    In the Kyrgyz Republic--the only democracy in Central 
Asia--our support contributed to parliamentary elections in 
October 2015 that international observers widely declared as 
credible, transparent, and accountable. USAID focuses on 
sustaining and strengthening the country's democratic processes 
heading into next year's Presidential election.
    In Tajikistan, the poorest of the Central Asian countries, 
boosting agricultural productivity is essential to improving 
lives. Fiscal Year 2017 funding will enable us to continue 
targeting a 20-percent increase in household farm income and a 
20-percent reduction in childhood stunting.
    In Turkmenistan--one of the most isolated countries in the 
world--USAID supports Turkmenistan in participating more fully 
in the global economy through reforms and the introduction of 
international financial standards. We have provided training 
and study tour opportunities to Turkmen officials and civil 
society members to enhance their understanding of good 
governance principles.
    And finally, in Uzbekistan we are expanding agricultural 
opportunities and promoting more responsive governance. Our 
request enables us to support Uzbekistan's limited number of 
NGOs, which are operating in a challenging environment.
    Mr. Chairman, the countries of Central Asia face ever-more 
complex challenges in charting their own course, making USAID 
engagement as vital today as it was 25 years ago at 
independence. I appreciate the opportunity to testify today and 
look forward to your counsel and questions.
    [The prepared statement of Ms. Yastishock follows:]
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                              ----------                              

    Mr. Rohrabacher. Well, thank you to all of you. And just a 
few questions.
    Let's look at Kosovo, because you spent considerable time 
talking about Kosovo. It has been over 20 years now, and we 
have played a dominant role in their government and in advising 
them and making them a priority for us in that part. Now you 
tell me that Kosovo is the number one country where foreign 
fighters for ISIL are being recruited. What does that say about 
our development system in that part of the world?
    Mr. Melia. Well, I would say a couple things in response to 
that, Mr. Chairman. One is that Kosovo ranks high on a per 
capita basis. It is a small country with a small population. So 
it is on a per capita basis that they rank relatively high, at 
the top of the scale in Europe, but of course there are 
countries in the Middle East and elsewhere that provide larger 
numbers and on a per capita basis as well. But it is a 
significant problem nonetheless. It may be small in absolute 
numbers, but it is a problem anywhere that foreign fighters are 
being recruited.
    Mr. Rohrabacher. Any guesstimate over the last 20 years 
what we have spent in Kosovo?
    Mr. Melia. I don't have that with me today. I would be glad 
to provide that to you later.
    Mr. Rohrabacher. But it is a considerable amount of money, 
and it is probably more than, as you say, for any other country 
its size, it is probably one of the highest level. Wouldn't you 
say?
    Mr. Melia. I believe it is relatively high. Certainly on a 
per capital basis.
    Mr. Rohrabacher. So let's just note that where we have been 
involved the most, we now have the highest recruiting level for 
those people who are getting involved in terrorism. Something 
is wrong. Something is wrong with that.
    I know Kosovo also has been the country which has been the 
wonderful recipient of mosques provided by Saudi Arabia. Isn't 
that the case? So we are providing assistance and money and 
something to help them develop, which has not seemed to work, 
and the Saudis provide mosques in order to train these people 
in radical Islam.
    There is something very, very wrong with that whole 
formula. I would think that, number one, again, it comes down 
to should our aid be involved with humanitarian emergency aid 
or should it be involved with development aid. And, quite 
frankly, it doesn't sound, from what I have seen over the 
years, the development part of it is not a very successful 
element. Helping people whose lives are in danger because of 
Ebola or an earthquake or a tsunami, that we have gone good at. 
But this development doesn't seem to have worked.
    By the way, in terms of the refugees, how much are we now 
putting in? Can someone answer? How much are we putting into 
the refugees in Europe? How many billions of dollars or 
hundreds of millions or what are we talking about?
    Ms. Romanowski. Actually, Mr. Chairman, if I could also 
add, go back just briefly, if you would permit me to Kosovo and 
specifically our support.
    Mr. Rohrabacher. Sure.
    Ms. Romanowski. I will say that we are making progress, and 
many of the Balkan countries that do have foreign fighter 
challenges are building countering violent extremist 
strategies, and they have started to take and enact some 
legislation. They have developed national security CVE 
strategies, with our help they have, and in our budget for 2017 
we do have about $3 million that we are going to put to help 
them support tackling that problem. They recognize they have a 
problem, and they want our assistance in helping it. So we are 
doing that.
    Mr. Rohrabacher. Well, I guess spending all that money on 
strategies means that strategists get a lot of money. That is 
great.
    Ms. Romanowski. And they are also going ahead and 
undertaking legislation that will allow them to go after the 
foreign fighter.
    Mr. Rohrabacher. Let me ask you this. Have we given money 
to, I guess in Europe it is the Interpol, specifically added to 
their money so they can track down terrorist organizations?
    Ms. Romanowski. I will have to get back to you with the 
answer to that question about whether we specifically support 
Interpol. But I know that we do share information.
    Mr. Rohrabacher. Yeah. It would seem to me that the 
development strategies that we have had in Kosovo, if you look 
at that, have not worked. We visited Kosovo last year. Young 
people continue to be unemployed with no hope of new jobs. And 
we end up with all of these mosques. But, again, in terms of 
how much are we providing for humanitarian emergency assistance 
to the refugees in Europe, Western Europe.
    Ms. Romanowski. If you may, we have at this point provided 
to UNHCR for humanitarian assistance to Greece, western Turkey, 
and the Balkans, in 2015 we provided about $26.6 million. And 
this year, in 2016, about $41 million.
    Mr. Rohrabacher. $41 million. And that is going to what 
countries again?
    Ms. Romanowski. It is going to UNHCR, the United Nations 
humanitarian organization.
    Mr. Rohrabacher. Right. What countries do they provide 
money to?
    Ms. Romanowski. In this particular case, they are 
supporting Greece, western Turkey, and the Balkans, as well as 
the rest of the world in humanitarian assistance.
    Mr. Rohrabacher. Okay. And let's just note, in this 
humanitarian crisis that is now being faced in Europe, that 
these are basically Muslim people who are going into different 
cultures and there are a number of Muslim countries who perhaps 
could be doing more for them. It is beyond me how this thingis 
all going to play out in the end. But we do see with Kosovo 
that we have got a serious problem if people who are not in the 
Middle East are being recruited into these terrorist 
organization. That is really worrisome.
    I will yield now to Mr. Meeks.
    Mr. Meeks. Thank you, Mr. Chairman.
    And I want to thank all four of you for your dedicated 
work, USAID, State Department. I think the American public 
really doesn't understand the significance and the importance 
of the work that you do and how it integrates and helps us all 
move forward.
    So I just want to thank you for your service, number one. 
It is very, very important. And we have got to figure out a way 
that we can let the American people know how important it is, 
because oftentimes, I guess, because they don't understand when 
they hear about funding to the State Department and to foreign 
affairs, et cetera, they think that it is wasted money. I don't 
know of a better investment.
    We need to have these dialogues so that we can understand 
and try to make sure that we break it down so that they 
understand why certain dollars go where and the significance of 
it. So, for example, I know when we talk about the OCO account, 
why we would want money to go there as opposed to the general 
budget and/or money that may be set aside for the DRG.
    In fact, when I was looking at the State Department's 
budget in 2015 for Europe and Eurasia budget, only 20 percent 
of that at the time was placed in the OCO account and it looks 
like now that that figurehas grown to about 60 percent. So I am 
just trying to understand why would we move and go from 20 to 
60.
    Ms. Romanowski. If I can address that question. Our level 
of commitment to each of our countries should be judged, I 
think, by the overall level of resources dedicated to 
supporting our strategy and not necessarily specifically the 
breakdown of OCO versus base funding.
    This question of OCO and base funding was something that 
the Department--it was part of a larger conversation between 
the Congress and the administration within the context of the 
2016 budget. And in coordination, I think, we have an agreement 
that our OCO funding will be targeted to areas impacted by the 
manmade crises as well or natural disasters.
    So for our region in Europe, this means allocating OCO to 
the frontline countries in crisis or are continuing in crisis, 
such as Ukraine, Georgia, and Moldova, which are not 
progressing as quickly and still need a lot of our support for 
the reforms they need to undertake. And for Central Asia, it 
meant allocating OCO to the Central Asia regional program, 
which does address the regional integration of Afghanistan and 
countering Russian pressure.
    So we understand the difference and we have an 
understanding that at the end of the day our assistance will go 
to those countries that need it and that we believe continue to 
need our assistance and also are making progress.
    Mr. Meeks. Thank you. And I think the other thing, again, 
when we talk about assistance and working together, maybe I 
will ask Mr. Melia this, do we, and if we do, how do we 
coordinate with our European Union allies on assistance to 
countries in Europe and Eurasia so that we can make sure we are 
getting the best bang for our buck and we are working 
collectively together?
    Mr. Melia. Sure. Thank you for the question, Congressman 
Meeks.
    In the 10 locations in the wider Eastern European region 
where we have offices or missions, we have regular consultation 
with other donors in country. We do that jointly with State 
Department colleagues at the Embassies in those countries, and 
we work very closely to make sure that we are working in tandem 
with them.
    In those places where we have a very small presence, like 
in Macedonia and in Albania in particular I am thinking of, we 
have struck interesting partnerships with European donors where 
they are putting money into some of the programs that we have 
designed and are implementing to enlarge them, to make them 
last longer or cover a wider swath of the country, in enhancing 
agricultural production techniques or in supporting judicial 
sector reform in particular, I am recalling.
    Just a few weeks ago, we signed a memorandum of 
understanding with the Government of Romania to work together 
in assistance programs. For them that means largely in Moldova, 
one of the weakest countries out of the former Soviet Union, 
joining Romania. Today we signed a specific agreement where 
they are joining us in an agricultural production project 
together.
    So we look for opportunities to leverage our small presence 
to enlarge it with others' contributions. I would say that our 
people in the field are very entrepreneurial that way in 
looking for ways to maximize the American investment.
    Mr. Meeks. Can you tell me, are there any countries within 
our subcommittee's jurisdiction that are being provided 
migration and/or refugee assistance and why those countries as 
opposed to others directly?
    Mr. Melia. Well, the principal places that have been the 
focus of our limited efforts on helping communities and 
countries deal with the migration crisis were Serbia and 
Macedonia, which were facing the brunt of it.
    Macedonia, last year we had a $3.5 million bilateral 
program as the foundation of our presence there. It is a very 
small presence. So in order to be able to deal with a sudden 
crisis like the migrant tide that washed in last year, we drew 
money from Washington, and this $2 million investment that went 
to Serbia, and a smaller amount that went to Macedonia, enabled 
us to finance local groups' efforts to provide social services 
to the migrants that were coming through, advising them on 
their rights, helping provide shelter.
    But the larger American investment in helping this has gone 
through our colleagues at the State Department's PRM Bureau, 
which has put money through U.N. agencies. I saw those U.N. 
agencies on the ground in Macedonia and in Serbia providing 
those kinds of services with ``Blue Jackets'' and under the 
multinational flag.
    But the U.S. is providing about a third, as I understand, 
about a third of the money that has gone into the UNHCR efforts 
in the Balkans in the last year or two.
    Ms. Romanowski. Congressman, if I could also add, we do 
have also ongoing programs that deal with border security and 
border control. And at the peak of the flow of the migrants 
where those countries had no clue how to deal with it, our 
presence of our INL and border collaboration was able to 
actually help those countries think differently on how they 
would have to address the flow and get a handle on it. So we 
have been very involved in providing the kinds of technical 
advice, technical assistance, and also just simply best 
practices that some of these countries desperately needed at 
the time of the crisis.
    At this point there are also some refugees who are left in 
some of those countries now that the borders are somewhat 
closed and we will continue to respond to their interests in 
sort of how do we manage those migrants and refugees who are 
there who are sitting there waiting for going back or moving 
on.
    Mr. Meeks. Thank you.
    Mr. Rohrabacher. Thank you very much. Just a few questions 
for the record my staff would like to ask, and then a couple of 
my own points.
    Could you give us an update on U.S. participation in Expo 
2017 in Kazakhstan? Someone have any information on that for 
us? Will the U.S. and the U.S. companies be able to fully 
participate in that expo.
    Mr. Rosenblum. Mr. Chairman, I can respond to that.
    So, as you may know, under current law the Department of 
State can't spend appropriated funds on U.S. pavilions or major 
exhibits at international expos, unless funds are expressly 
appropriated by Congress for that purpose. And as a result, as 
part of a longer-term effort to address this, in the 2017 
budget request the State Department is actually proposing 
language to address that. To allow for funds to be spent toward 
international expos.
    But in the meantime, with respect to the Kazakhstan expo, 
we are in a bit of a bind, I would say. You know that the last 
expo, which was in Milan, Italy, was a big success as a 
representational event. It got, I think, 6.1 million visitors 
came to the U.S. pavilion. But as a financial matter it was not 
such a great success. The private sector partner who raised 
money for that expo didn't raise the necessary amount. And we 
are now working with that private sector partner to find a 
solution to the debt.
    But in the meantime, even though the Astana expo will cost 
less than the Milan one did, without having strong financial 
commitments from the private sector the Department of State 
can't confidently proceed to give the formal U.S. blessing to 
the pavilion.
    So we are still working with the Government of Kazakhstan, 
also with the Departments of Commerce and Energy, to find a 
creative solution to this and find some way that we can, under 
existing legal authorities, have a presence there.
    Mr. Rohrabacher. Thank you, Dan. Thank you very much. My 
staff wanted that question answered. So there you go.
    And has the United States been able to sign a new bilateral 
assistance agreement with Kyrgyzstan to replace the one that 
was abrogated last year?
    Mr. Rosenblum. I can address that as well.
    Mr. Rohrabacher. Let's hear.
    Mr. Rosenblum. So as you probably know, last summer, our 
bilateral assistance agreement with Kyrgyzstan was unilaterally 
canceled by the Government of Kyrgyzstan. It is important that 
we have this because without it our assistance is subject to 
local taxation, which is against all U.S. policy. And so it 
provides us a basis for helping Kyrgyzstan in a variety of ways 
that we are not able to do right now.
    Secretary Kerry's visit there in the fall helped to--was 
sort of a turning point, and I think our relationship is in a 
much better place today, and much----
    Mr. Rohrabacher. Headed in the right direction, would you 
say, now?
    Mr. Rosenblum. Yeah, it is headed in the right direction 
and we are talking intensively about getting a new agreement in 
place and we hope to have it.
    Mr. Rohrabacher. Okay. I just noted that we have 15 minutes 
before the vote is over, and I will finish up my questioning 
here. Mr. Meeks will have his. We will see if whatever we can 
squeeze out, but this hearing will be adjourned at 5 minutes 
till the time that we have to go over and vote. So there you 
go.
    I am a little concerned about when I keep--what role did we 
play in making sure that the Lithuanians have their LNG 
facility? Did we have any government money involved in that?
    Ms. Romanowski. Mr. Chairman, I would like to get you a 
response for the record, but my understanding is that we did 
not have any resources for that. It was so--but I will get 
you----
    Mr. Rohrabacher. Okay. Let me just note that----
    Ms. Romanowski [continuing]. An answer for the record.
    Mr. Rohrabacher [continuing]. When we are talking about, 
and we have people here as representatives of our Government, 
talking about how we are involved with--or we are in some way 
promoting these things, at some point I would hope that we 
start trying to improve relations with Russia rather than 
trying to hit them in the face. I mean, I just--over and over 
and over again part of the testimony today, and it is a policy 
of our Government, which you reflect, which is a hostility 
toward Russia that is driving us away from each other.
    And every time there is something we can do that will 
undercut them economically or undercut them in some way in 
their relationship with people around them, it would be as if 
some--Russia would come in and do something with Mexico to try 
to make sure that we couldn't work with Mexico or something. 
These are hostile acts, as far as I am concerned, and I know my 
colleagues disagree with me on that.
    Mr. Meeks may or may not disagree with me on that, but I 
think--what are we doing? Do we still fund these people-to-
people exchanges with Russia? Are we at least doing some of 
that?
    Ms. Romanowski. Mr. Chairman, yes, we are. And in fact, we 
are planning on continuing and I have requested funds in our 
2017 budget to be able to continue to engage with people-to-
people exchanges and programs between Americans and Russians 
who would like to engage. And it is--we have been very open 
about our engagement with Russia. We have consistently pointed 
out that the United States and Russia should continue to work 
together on a range of issues that affect our national security 
concerns.
    We are also frank when we disagree, as I am sure you know, 
whether it is on Ukraine or on the treatment within Russia of 
civilian--their civil society, political opposition, or 
journalists. But we do believe that it is important that we 
maintain the people-to-people contacts. They have been 
invaluable. And we have requested resources.
    Mr. Rohrabacher. Let me note, I was the head of a codel. 
This is, you know, our committee overseas relations with 
Russia, as well as Europe and Central Asia. We recently headed 
a codel to Russia. It was like a few months ago, and we were 
the first codel there in the last 3 years. People got to know, 
there are incredible implications to this continued role toward 
making things more hostile and more hostile and more hostile.
    You have pictures of Russian planes buzzing our ships. Of 
course, no one noted, when they said that, where that ship was 
located, which was 26 miles from St. Petersburg and, yeah, it 
was international waters, but that would be the equivalent of 
sending a missile delivery system boat of Russia off of 
Catalina Island, which is 26 miles off of my shoreline. I think 
we need to really pay attention to try to be peacemakers where 
we can rather than this incredible hostility that could lead us 
to war, which would be a catastrophe for the world.
    And with that said, Mr. Meeks, I give you the last word on 
that and then we will adjourn.
    Mr. Meeks. Thank you. Let me just say, one of the things I 
do agree with you on is that people-to-people contact is 
tremendously important. I think that we need to fund it and I 
think that that is important.
    But let me just then defer with you when you talk about 
aggression on our side. It wasn't the United States that 
invaded Eastern Ukraine. It wasn't the United States that, you 
know, when they talk about Georgia and other countries in the 
region. So when you talk about aggression, it seems to me that 
the aggression is coming from the other side. It takes two to 
tango.
    And I know that this President and this administration was 
doing everything it could to try to improve those 
relationships. And we have talked about, you know, against, 
quite frankly, some of my colleagues, not Mr. Rohrabacher, but 
on the other side, he was being criticized for doing it early 
on in his administration. And so we--but it takes two to tango. 
And clearly, if I look at the aggressive part, especially the 
military aggression, that is not on us. That is on them.
    The question that I wanted to--I guess the final question 
that I want to ask is the current and the future shape of the 
European Reassurance Initiative. I know that the President is 
asking or is going to be asking to quadruple the ERI this year. 
But I just want to know, do we know how that money will be 
distributed? You know, because there has become some issue on 
the distribution or how the money will be distributed and if we 
are going to increase it. I, just for my edification, would 
like to know if there is a plan on how that will operate.
    Ms. Romanowski. Congressman Meeks, I will have to get back 
to you on the exact details, because as you know, the European 
Reassurance Initiative is also a very large Defense Department 
program. And how it will all break down are the things that 
still are under a lot of discussion, and we can get back to you 
with the details on that.
    Mr. Meeks. That would be great. Because I think that would 
help, you know, especially as we are reviewing on our side, we 
know how the money is being spent and why. And I think it helps 
us when we want to explain it to the American people also and 
how it is to our advantage and, you know, especially when you 
are talking about the increase therein.
    So with that, I know that we have votes, Mr. Chairman, and 
I don't want to miss these votes that we have got coming up. So 
I will yield back. Thank you.
    Mr. Rohrabacher. Thank you very much. My ranking member is 
right. When Russia was involved in those, we weren't involved 
in that with them. We were too busy in the Dominican Republic, 
Panama, Grenada, and helping Somoza and all of these other 
dictators that we have been helping and invading their country 
when they were overthrown. Reagan did it. Listen, I was there 
with Reagan too.
    But the bottom line is, this is not their--we do some of 
the same things that we are condemning the Russians for and I 
do not have a double standard on that. And I think communism 
was the greatest evil in my lifetime and I am proud that we 
defeated it. But that Russia is no longer the Soviet Union, and 
we should be trying to aim at peace with them rather than--and 
reconciliation rather than beating them down every time we have 
a chance.
    So with that said, this hearing--and thank you for your 
work, and my door and the ranking member's door is always open. 
If you have some things you would like to talk over with us, I 
am open to you. So please take advantage of that offer.
    And with that said, this hearing is now adjourned.
    [Whereupon, at 3:03 p.m., the subcommittee was adjourned.]

                                  
                                     

                            A P P E N D I X

                              ----------                              
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                               [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
